5

ORfOIMAL

10“?4 35

. __y

FILED
JAN 0 7 2021

IN THE
SUPREME COURT OF THE UNITED STATES

STEVEN GENE KNICKERBOCKER - PETITIONER
VS
WISCOSIN ETC - RESPONDENTS
ON PETITION FOR WRIT OF CERTIORARI TO
EASTEREN DISRICT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIOPRARI
STEVEN KNICKERBOCKER
1006 COUNTY RD EE
REDGRANITE, WI 54970
920 566 2600
Redgranite prison

6

QUESTION(S) PRESENTED
VIOLATING Federal law, then sever beating Knickerbocker in a cell, by Sgt
Wilson and 6 deputies, in Outagamie jail. Judge Vincent R. Biskupic had me
beaten in the cell and refused me healthcare there and at RGCI where Cythinthe
Barter refused Healthcare and throw me in the Hole, where my body was
severely Bruised and endangered my life. Violating Sinclair v, United States
1929. The Bruising was do bad, that Knickerbocker should have been brought to
the Hospital, the five false statements and 3 verbal false statements, and the
destruction of the evidence , no state shall enforce Sinclair v, United States 1929,
no unusual punishment shall be enforced by any State? In the interest of Justice
Chuck Stertz and Dana J. Johnson should be charged for violating Hubbard v
US and Sinclair v US, which Knickerbocker had security take pictuers of his
legs. ADA Chuck Stertz, knowing full well that this prosecutorial misconduct is
a federal crime, in the name justice Dana J. Johnson and Stertz should be
arrested for almost killing me in Outagamie Jail, by Vincent Biskupic

7

LIST OF PARTIES
1 Chuck Stertz

7 Leonard Kachinski

2 Dana J Johnson

8 Scott Walker

3 Vincent R Biskupic

9 Tommy Thompson

4 William Atkinson

10 Brad Shimmel

5 Jeffrey Frolich

11 Steven Johnson

6 Heather Kavanaugh

12 Kelli Thompson

8

TABLE OF CONTENETS
OPINIONS BELOW.
JURISDICTION

No Opinions have been given as of yet
Federal, 18 USCS 1001 and 18 us code 1001

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED, Yes
STATEMENT OF THECASE several, 7th refused my Writ of Mandamus
REASONS FOR GRANTING THE WRIT...no other court will rule on it.
CONCLUSION

INDEX TO APPENDICES
APPENDEX A 7th Cir. Denied the Mandamus and Certiorari by 3
Judges
APPENDIX B Eastern he is a man.Denied, Lynn Adelman, because I
thought it was a woman,
APPENDIX C Nothing from the State of Wisconsin, out of their
Jurisdiction
APPENDIX D
APPENDIX E
APPENDIX F

9

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Olmstead V. United States, 227 US 438

20.35

Supreme Court of WI \2012\2013 WI 13 State V. Avery:
Madison I crunch 137; 2L Ed. 60(1803)

36

Marbury v.

20, 35

Stat^ v- Tkacz 2002 WI app 281, 258 Wis. 2d 611; 654 N.W. 2d 37.
23,31
State V. Cobbs 221 Wis. 2d 101
Buckley V Fitzsimons 7th cir

31
40

Wis Stat 972.09 Hostile witnesses, inconstant statements; 943.32 Robbery
(l)(a)*(3); 939.49 (1) Defense of property privileged to threaten or intentionally
use force.
State V. Medina 2006 Wi App 76
Article 4 § 1 of the United Sates Constitution; full faith and credit shall given in
each State to public acts, records, and Judicial proceedings every other State.
And the Congress may by general laws prescribed the manner in which such
acts, records, and proceedings shall be proved and the effects thereof.
Brown V. Mississippi 297 U.S. 278, 286, 80 L. Ed. 682, 56 S. Ct 461(1936) in
addition, in Malloy V. Hogan 378 U.S. 1,7,12 L. Ed. 2d 653, 84 S. Ct 1489 (1964).
461(1936) in addition, in Malloy V. Hogan 378 U.S. 1,7,12 L. Ed. 2d 653, 84 S. Ct
1489 (1964).
Ake V. Oklahoma

10

Brady v Maryland
State V. Wolff, 171 wis 2d 161, 167, 491 N.W. 2d 498, 501 ( Ct. App 1992)
28

State V. Lettice of his right of counsel and Due process...but in Law where came
from, Perversion of Judicial machinery Id at 346. 548 N.W. 2d at 820
Weeks V. United States (1914).
Irvine V. California (1954).
Miranda V. United States
Sinclair v, United States 1929.
Hubbard V. United States No 94-172 Supreme Court of the United States 514 U.S.
695; 115 S. CT 1754; 131 L. Ed 2d 779; (1995), the coverage of 18 U.S.C.S. § 1001
Strickland v. Washington 466 US 668, 687 (1984)
State V. Powers 216 Wis. 2d 116, 573 N.W. 2d 901,

11

State V. Payano-Roman 2006 WI 47,290 Wis. 2d 380, 714 N.W. 2d 548,
11
State V. Frohn No 87-0671-cr-nm,

11

New Berlin V. Cerrillo 174 Wis. 2d 599,174 Wis. 2d 599, 501 N.W. 2d 469,
11
State V. Williams 2001 WI 21,pl8,241 Wis. 2d 631, 623N.W.2d 106,
11
State V. Horngren 2000 Wi. app 177, p7’ 238 Wis 2d 347, 617 N.W.2d 508
11
California v Trombetta 467 U.S. 489

8.9.10

state v Hahn 132 wis 2d 351, 392 N.W. 2d 467( CT app 1986) 971.2(1)
United States V. Poole, 407 F. 3d 767,774 (6th Cir. 2005) Citing United States V.

11

The Fourth, Fifth, Sixth and 14th and article 1 section 7 & 8 of the Wisconsin
Constitution, as well as a violation of SCR 20:1.9, AND OF THE United States
constriction
The United States Constitution under fire by a state, the use of allegations and
hearsay destroying the 5th amendment and the use of Wisconsin admin code
public defender 5; 01 and 5: 02 wiping out the criminals and citizens right to an
attorney under Gideon and Brady, all criminals and civilians are allowed an
attorney
The right to Habeas Corpus shall not be abridged unless a time of war, and that
every trial shall be reexamined in any U. S. court. Under 28 U.S.C.S1443
anything that violates federal law can be thrown into any U.S. Court without
exhausting it in a state court. 28 U.S.S.C. 1251, 1252,1254 Habeas Corpus
anything exhausted in a state court can be brought into Federal court
Other constitution of the United States no state, shall enforce any cruel
or unease punishment

12

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below
OPINIONS BELOW
□ for cases from federal courts
The opinion of the United States court of Appeals papers at Appendix B to
Petition and is:
Is not published, for the three Judges denied the writ of Mandamus and of
Certiorari
The opinion of the United States district court appears at Appendix A to
the Petition and is
Dismissed without prejudice, failure to pay, and is online Stertz V
Knickerbocker, is unpublished, the use of false statements
□ for cases from State Court to review the merits appease at Appendix D to the
Petition and is,
Unpublished for the Courts will not review the case or give an opinion of
the case so is not attached
The opinion of the Appeals court of Wisconsin appears in the appendix to
o no+i + i r\v%

on /I ic

13

Jurisdiction
□For cases from Federal courts:

The date on which the highest court decided my case was the 7th cir of
Chicago, ill, and refused to rule or make a decision on the case, of Writ of
Mandamus 2019, refilled 20 CV 109

□ No petition for rehearing was timely filed in my case and the date was
2019, under 19-2918, 2:19 CV 1020 jps, 18 cv 805, NOW 20 cv 109, back in
Eastern

The Jurisdiction of this Court is invoked under 28 U.S.C. 1254(1).
□ For cases from state courts:
The date on which the highest state court decided my case was never
heard, even though it has the seal of the United Stated court stamp in the
left hand corner when I first mailed it to the Supreme Court of the United
States of America, they say that they cannot decided case that are a
question of Federal law, and they wonder why there prisons are full,
suppressing the 14th amendment by Judges in these Kangaroo courts.
T7'____ _

t__

_______________ j.

tt»tt

m____ ____ a____ j

t?_____ ------------------.:i:«

ii. _

x~ ~

14

CONSTITUTIONAL AND STATUTORY PROVISIIONS INVOLVED
Wisconsin Administration Code Public Defender 5:01 and 5:02, Except as
provided in Sub 2 all SPD attorneys shall act as adversary condition in their
representation to indigent clients.

Wiping out the right to counsel by the 6th and 14th amendment, also the Gideon
Rule set forth by the United States Supreme Court of the United States of
America, this is how the state can wipeout all the US laws, and the United States
Constitution, which Charles Stertz did by lying under oath in a Scheme seen
before in 08 cm 19.

Allegation Law wipes out the Due Process of law and inflicts US Code 1001
because of the lying under oath and destroys Article 6 of the United States
Constitution, and under Medina’s rights under the 5th, 6th and 14th and Article 1
sec 7&8 of the Wisconsin Constitution as well SCR 20:1,9

Article 7 suits of Common law, where the value of the right of trial by jury, Shall
be preserved, and no fact, tried by Jury, shall be reexamined in any court of the
United States, Judges in Wisconsin are refusing the facts, to be heard to the
Jury, and suppressing the 14th amendment. “ suppressing the facts to be heard,
so the DA can lie under oath, and the Attorney has to help him lie under oath,
making them party to the crime.

Article VT Claus 2 AKE V. Oklahoma the sunreme court, bald that the fourteenth

15

STATEMENTS OF THE CASE
All Persons born or Naturalized in the United States, and are Subject to the
Jurisdiction thereof are citizens of the United States and of the state where in
they reside, No State shall (Wisconsin) shall make or enforce any law which,
shall 1 abridge the privileges or immunities of Life, Liberty, or Property,
without the due process of law.
Nor deprive and person, within its jurisdiction the equal protection of the
law. To Clarify, when we use allegations we wipe out the Due Process of Law,
which is unconstitutional. For any person, Judge or DA can lie under oath out of
personal revenge and makes Cops easy to be manipulated, 17 CF399 here
Charles Chuck Stertz is telling the cop Mark Hennen to lie under oath and
telling the attorney Heather Kavanaugh to tamper with evidence, then getting
Leonard Kachinski to file a no merit report saying that the false statements did
not have a bearing on the trial, knowing fair well that they destroyed the right
top trial and the right to the jury clause of the United States Constitution, and
no State shall take away any citizens right to vote.
Tyranny the Abuse of Absolute power to throw people into prison, each
person lied in each document.
its own laws, or worse, its’ disregard of the charter of its’ own existence. As Mr.
Justice Brandeis, dissenting, said in Olmstead V. United States, 227 US 438.
fourth amendment unreasonable search with no probable cause. Just like in
2016-CM-1113.
Hard to win a case when everybody is lying and the DDA is telling police to lie.
See 2017-CF-399.

16

REASONS FOR GRANTING THE PETITION
For almost killing me when sgt Wilson and six deputys beat me in the cell violating Sinclair v us 1929

CONCLUSIN
Steven G. Knickerbocker 4/17/ 2020
The writ for a certiorari should be granted
PROOF OF SERVICE
THE EASTERN COURT AND THE 7th CIRCUIT HAVE ALREADY BEEN
NOTIFYED, BUT UNDER PRLA THE MONEY MUST BE PAID, OR YOUR CASE
IS DISMISSED. I WAS TOLD BY JP STADMUELLER TO FILE WHEN I GOT OUT.
THIS VIOLATE FEDERAL LAW AND YOU ARE A FEDERAL COURT, DO YOUR
JOB, MARSHAL SHALL COME AND DELIVER ME TO FEDERAL COURT, SO AS
THE ATTORNEY GENERAL, CAN REWRITE LAW AND CODE.

No.

9^7^
IN THE

SUPREME COURT OF THE UNITED STATES

STEVEN G. KNICKERBOCKER-PETITTIONER
VS
WISCONSIN ET AL—RESPONDENT(S)
PROOF OF SERVIVE
I, Steven Gene Knickerbocker, do swear or declare that on this date, March 16th, 2020, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party
to the above proceeding or that part’s counsel, and on every person required to be served, by
depositing and envelope containing the above documents in the United States mail properly
addressed to each of them and with first class postage prepaid, or by delivery to a third party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
All names, and the Attorney General of Wisconsin, have been served these papers, from the 7th
cir, this has been revisited each year when I get enough money to mail it in, this should have
been heard in 2017 by Lynn Adelman-said need 350 to hear case, because I am in Prison, and/
PRLA is blocking me. For this violated Federal law.
I, Declare under penalty of perjury that the foregoing is true and correct

